C@QCKLE

Legal Briefs

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
Nos. 19-1257; 19-1258
MARK BRNOVICH, ATTORNEY GENERAL OF ARIZONA, ET AL.., Petitioners,

v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL., Respondents.

 

ARIZONA REPUBLICAN PARTY, ET AL., Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL., Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
FAIR FIGHT ACTION, INC. AND THE ARIZONA VOTER EMPOWERMENT TASK FORCE
IN SUPPORT OF RESPONDENTS in the above entitled case complies with “the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2024 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of January, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

GENERAL NOTARY-State of Nebraska
f RENEE J. GOSS Konee. 9. : ae OQudeawr h- Chi,

Notary Public Affiant 40570
